No.

IN THE

SUPREME COURT OF THE UNITED STATES

In re TODD BRITTON-HARR,
Petitioner.

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Michael Ufferman, member of the Bar of this Court, pursuant to Rule 33.1(h),
hereby certify that the Petition for an Extraordinary Writ of Habeas Corpus in the
above-entitled case complies with the applicable word limitation. The number of words
in the document is 3,106

.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

